                             Office of Inspector General
                            Corporation for National and
                                     Community Service




    AUDIT OF THE FINANCIAL MANAGEMENT
           SURVEY RESPONSES OF
               NEW GRANTEES

                   OIG REPORT 09-15




       1201 New York Avenue, NW,
                 Suite 830
          Washington, DC 20525
        Telephone (202) 606-9390
         Facsimile (202) 606-9397




This report was issued to Corporation management on August 12, 2009. Under the
laws and regulations governing audit follow-up, the Corporation is to make final
management decisions on the report’s findings and recommendations no later than
February 12, 2010 and complete its corrective actions by August 12, 2010.
Consequently, the reported findings do not necessarily represent the final resolution
of the issues presented.
                                     NATIONAL&!
                                     COMMUNITY
                                     SERVICEt:;:tJ:
                           OFFICE OF INSPECTOR GENERAL

                                           August 12, 2009




TO:           Nicola Goren
              Acting Chief ExecutiVj ,Offic~r

FROM:          Stuart Axenfeld   ~ A~
               Assistant Inspector General for Audit

SUBJECT:       Office of Inspector General Report 09-15 Audit of the Financial Management
               Survey Responses of New Grantees


Attached is the final report on the OIG's Audit of the Financial Management Survey Responses
of New Grantees.

Under the Corporation's audit resolution policy, a Final Management Decision on the findings in
this report is due by February 12, 2010. The Notice of Final Action is due by August 12, 2010.
The Corporation's response and corrective action plan to implement the recommendations in
the audit report will be considered by the OIG as its proposed management decision.

If you have any questions or wish to discuss this final report, please contact Rick Samson, Audit
Manager, at (202) 606-9380 or RSamson@cncsoig.gov.

Enclosure

cc:     Eric J. Tanenblatt, Chair, Board of Directors Management, Audit, and Governance
        Committee
        Kristin McSwain, Chief Program Officer
        William Anderson, Acting Chief Financial Officer
        Rocco Gaudio, Deputy Chief Financial Officer
        Margaret Rosenberry, Director, Grants Management
        Sherry Blue, Audit Resolution Coordinator




                      1201 New York Avenue, NW * Suite 830, Washington, DC 20525
                        202-606-9390 * Hotline: 800-452-8210 * www,cncsoig.gov
                                                                                         us~~-
                                                                                         Freedom Corps
                          Senior Corns   * AmeriComs * T,earn and Serve America          Make 0 Difference. Volunteer.
                                                             CONTENTS

Section                                                                                                                              Page

Executive Summary ........................................................................................................            1

Summary of Results ........................................................................................................           1

Summary of Questioned Cost ..........................................................................................                 2

Conclusion .......................................................................................................................    2

Results of Audit ................................................................................................................     3

Objective, Scope, and Methodology ............................................................................... 15

Background ..................................................................................................................... 16

Exit Conference................................................................................................................ 16




Appendices

A: Financial Management Survey
B: List of Selected Grantees
C: Corporation for National and Community Service Response to Draft Report
                                  EXECUTIVE SUMMARY

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), performed an audit of the Financial Management Responses of New
Grantees. The purpose of the audit was to determine if the new grantees’ responses to
the Corporation’s Financial Management Survey (FMS), and additional procedures
performed by the Corporation, are adequate to determine whether the new grantees’
financial management systems meet applicable regulations, Office of Management and
Budget (OMB) Circular and grant requirements.

In OIG Report #98-02 Review of Corporation for National and Community Service Pre-
Award Financial Assessment of Grant Applicants, dated February 20, 1998, we found
that Office of Grants Management (OGM) staff did not always collect information
required for assessing new grantees. OGM also did not always resolve new grantee
deficiencies that were identified during the assessment process prior to making a grant
award or renewal.

Our 1998 report recommended that the OGM strengthen its guidelines for pre-award
financial assessments of grantees. Specifically, the report provided detailed information
on how to document the grant officer’s assessment and consistently document
procedures performed during site visits. It also recommended criteria for determining
when a more detailed assessment, other than the Financial Management Survey and a
review of prior grantee audit reports, was necessary.

Many of the same problems identified by the OIG 11 years ago were found during this
audit. For example, the OGM still primarily relies on the responses provided on the
FMS, a less-than-reliable source of information, to determine whether new grantees’
financial management systems meet OMB Circular and grant requirements. The FMS
contains self-reported information and lacks any method for verification of responses.

The Corporation’s review process also needs improvement. Of the 32 FMS documents
provided by OGM for our audit, we found that 20, or 63 percent, showed no
documentary evidence of a review by Grants Management personnel.

These serious shortcomings became evident in our on-site tests of 13 new grantees for
this audit. Of that total, we found that nine new grantees had financial management
systems that were either inconsistent with their FMS responses or were not in
compliance with applicable regulations.


                                 SUMMARY OF RESULTS

1.   Sixty-three percent of the FMS documents reviewed did not provide sufficient
     evidence that the responses had been reviewed by Corporation personnel.

2.   Thirty-eight percent of new grantees tested did not have time and attendance
     records (timesheets) that meet the requirements of applicable OMB Circulars.

3.   Fifty-four percent of new grantees tested charged costs to grants that were not
     allowable, allocable, or supported with adequate documentation.


                                            1
4.   Forty-six percent of new grantees tested did not have adequate internal controls in
     place or written policies and procedures related to internal controls.

5.   The risk level assigned using the Corporation’s Monitoring Planning Assessment
     Criteria “Weighting” / Point Values was not consistent with risk indicators.

6.   Twenty-three percent of new grantees tested applied indirect rates to the grant
     without an approved Negotiated Indirect Cost Rate Agreement (NICRA) in place
     and charged rates that exceeded the CFR limitations.

7.   Thirty-one percent of new grantees tested did not have written policies and
     procedures for grant management.

As a result of reviewing a sample of costs for the selected grantees, the following costs
were questioned:

                             SUMMARY OF QUESTIONED COST
                                            Cost Claimed          Questioned Amount
 Reason                  Grant No.
                                           9/29/06 – 9/28/07       9/29/06 – 9/28/07
 Unsupported             06SRAMA001                $119,855                $12,380
 Excess Admin. Cost      06NDHCA001                    3,526                  1,623
 Allowability            06NDHCA001                   13,485                    582
 Total                                             $136,866                $14,585



CONCLUSION

Financial Management Surveys cannot be relied upon in determining whether the
grantee’s financial system complies with OMB Circulars and other grant
provisions.

Nine of the 13 grantees selected for review had financial management systems that
were inconsistent with their certified responses to the Financial Management Survey
(FMS) or were not in compliance with applicable regulations.

We found that grant applicants are not required to provide documentation that supports
the certified answers on the FMS and the information provided by applicants is not
validated for accuracy. Moreover, the Corporation does not routinely conduct pre-award
site visits.

We also found that the Corporation did not always follow up when applicants
acknowledged deficiencies in their financial management system(s) in the FMS. As a
result, the Corporation may award grant funds to organizations that cannot track the
source and application of funds or determine whether they were used for authorized
purposes. Corporation personnel stated that pre-award visits to applicants are no longer
standard procedure. They are currently only performed for applicants with severe
deficiencies noted in the FMS or in OMB A-133 Audits of States, Local Governments
and Non-Profit Organizations.


                                            2
Specific areas of noncompliance with OMB Circulars and other grant requirements are
listed below in Findings 1 through 6.


RESULTS OF AUDIT

Finding 1. The Corporation did not properly review FMS responses or document
its review, and some FMS forms were missing. Additionally, the Corporation did
not document any follow-up on weaknesses identified on the FMS.

We reviewed 32 FMS provided by the OGM. Of that number, 20 had no documentation
of a Corporation review. The FMS includes a place for Corporation personnel to
document comments or observations and to sign and date, indicating their review. The
FMS review was documented on only 12 of the 32 FMS provided to OIG. The reviewer
identified weaknesses on only three of those 12 FMS, but did not document any follow-
up action related to the weaknesses identified. Documentation of the FMS review and
follow-up actions are needed to ensure that the review has been completed and the
Corporation has exercised prudent oversight.

New grantee training was not always provided. On the FMS for one grantee in our
sample, the reviewer recommended training and technical assistance for grantee staff
employees. The grantee stated that it was an all- volunteer organization and did not
obtain the training because it did not have staff working on the grant. Two grantees in
our sample received training and technical assistance (TTA) four months or more after
the grant was awarded; and one grantee requested TTA. Necessary and timely training
for new grantees can improve their accounting systems and financial reporting and avoid
future financial and compliance issues.

Chief Financial Officer Policy CFO-029 states that:

   The Corporation has a responsibility to exercise prudent oversight of
   Federal funds under its administration. Accordingly, it is to monitor
   grantees to provide reasonable assurance that federal grant funds are
   expended in ways that meet program objectives, the award terms and
   conditions, applicable federal statutes, regulations and guidelines. One
   way to facilitate this is to ensure that prospective grantees have adequate
   financial systems in place to manage grant funds prior to receiving an
   award, the Corporation should conduct the pre-award financial review
   (financial review) prescribed under this policy…

The FMS was not routinely maintained as part of the official grant file. Of the 48 FMS
we requested for our audit, the Corporation could not locate seven (15 percent). OGM
Policy No. 600 states that an official grant file “is a file that contains hard copy financial
and program documents, forms and memoranda needed to properly award, monitor and
close out the grant.” It also states that an official grant file should maintain certifications
and assurances.

Five of the 13 new grantees tested did not have a FMS, including one that cited an
exemption granted by the Corporation because it is a government entity. However, we
found that this grantee did not meet the criteria for an exemption. CFO-029 states that


                                               3
“[g]rants officials generally determine that new or re-competing applicants are exempt
from a financial review if they meet one or more of the following criteria for low risk:

           1. Any applicants for grants of $25,000 or below;

           2. State and local governments that have received OMB Circular A-133
              audit reports with no findings for the past two years; and/or

           3. State commissions that have successfully completed the Corporation’s
              Administrative Standards Review process.”

The governmental entity that was granted the exemption was awarded a grant in
excess of $25,000, did not have an OMB Circular A-133 audit conducted for FY
2004 and FY2005, and is not a State commission. Therefore the exemption did
not apply.

The Corporation’s eGrants system did not readily identify new grantees, making it
difficult for the Corporation to find and examine these entities. When the OIG requested
a list of new grantees during Calendar Year 2006, the Corporation could not readily
identify these entities.

Recommendation 1

We recommend that the Corporation:

   1a.   Review and maintain documentation of its review of all FMS received from
         applicants or grantees.

   1b.   Document weaknesses identified as a result of the FMS review.

   1c.   Provide early training to grantees on financial management of Federal grants
         and timely technical assistance to grantees with weaknesses identified in
         recommendation 1b.

   1d.   Provide training to Corporation staff on the criteria for requiring a FMS from
         new grantees.

   1e.   Develop and implement, in eGrants, a method to identify new grantees in any
         given year.

   Corporation Response

   The Corporation agreed with the recommendations, but will implement them using a
   different tool than the current FMS. The Corporation will replace the current FMS
   with the more extensive Financial Systems Survey (FSS) that Corporation staff
   members use in preparation for site visits and in desk reviews. The FSS requires
   grantees to provide documentation of their financial systems, policies and
   procedures, and internal controls in preparation for desk reviews and site visits. The
   Corporation will begin using the FSS with the 2010 grant cycle; and will document its
   review of the FSS in the monitoring component of eGrants where more extensive
   comments can be included. The Corporation will revise CFO Policy 029 by

                                             4
   December 31, 2009 and its financial assessment processes to reflect the changes to
   the pre-award review of the grant applicants’ financial management capabilities.

   In addition, the Corporation will develop an on-line training course that new grantees
   will complete during the award process. The training program will cover the
   requirements under the OMB Circulars, paying particular attention to problem areas
   such as timekeeping, written internal control procedures, allowable costs and
   application of indirect cost rates. The course will include periodic quizzes to ensure
   grantees understand and can apply the information to their organization. The
   projected availability for the on-line course is March 31, 2010.

   OIG Comment

   The Corporation’s planned actions meet the intent of the recommendations.
   However, the OIG will review and comment on the revised CFO Policy 029 before it
   is finalized.

Finding 2. Time and attendance was not recorded using activity based timesheets
that met the requirements of applicable OMB Circulars.

Thirty-eight percent (5 of 13) of selected grantees were not using activity based
timesheets. Employees’ time charged to the grants was not supported by timesheets
that were prepared in accordance with the applicable OMB Circular. One grantee
reported being unaware of the requirement. Two grantees did not record time by grant
and activity, or did not maintain documentation supporting their alternative labor method
of allocating time between grants and activities. Two grantees did not properly certify
their timesheet records.

OMB Circular A-122 Cost Principles for Non-Profit Organizations, Attachment B
Paragraph 8. m. Support for salaries and wages, states that “Charges to awards for
salaries and wages, whether treated as direct costs or indirect costs, will be based on
documented payrolls approved by a responsible official(s) of the organization. The
distribution of salaries and wages to awards must be supported by personnel activity
reports, as prescribed in subparagraph 2, except when a substitute system has been
approved in writing by the cognizant agency.”

OMB Circular A-87 Cost Principles for State, Local, and Indian Tribal Governments,
Attachment B Paragraph 8. h. Support for salaries and wages, states that “Charges to
Federal awards for salaries and wages, whether treated as direct or indirect costs, will
be based on payrolls documented in accordance with generally accepted practice of the
governmental unit and approved by a responsible official(s) of the governmental unit.”
A-87 continues “Where employees work on multiple activities or cost objectives, a
distribution of their salaries or wages will be supported by personnel activity reports or
equivalent documentation which meets the standards in subsection (5) unless a
statistical sampling system (see subsection (6)) or other substitute system has been
approved by the cognizant Federal agency.”

The Corporation did not verify that these new applicants had a time and attendance
system that complied with OMB Circulars, creating a situation where labor costs charged
to the grants could be overstated. Without adequate time and attendance reports,
grantees could also apply labor charges to their respective grants for activities that are

                                            5
not grant-related. Additionally, management oversight and budgeting of grant labor
costs is weakened without accurate information on labor cost.

Recommendation 2

We recommend that the Corporation:

      2a.    Ensure the grantees’ timesheets or time and attendance system complies with
             OMB Circular and grant provisions as part of the FMS review.

      2b.    Evaluate alternative labor charging methods used by grantees and correct or
             approve as needed.

      2c.    Provide training on time and attendance requirements to new grantees.

      Corporation Response

      The Corporation agrees with the recommendations. The on-line training course,
      described in the Corporation’s response to the recommendations in Finding 1, will
      provide instructions on what written policies and procedures grantees must have in
      place at the time of grant award. The Corporation will conduct a site visit or desk
      review of each new grantee within one year of its first award. By reviewing time and
      attendance within the first year of grant award, the Corporation will be able to
      address actual performance rather than hypothetical performance.

      During the site visit or desk review, the Corporation will review the grantee’s
      timekeeping system and conduct a review of the organization’s policies as well as a
      sampling of records. In order to address the larger risks associated with alternate
      labor charging methods, the on-line training will inform grantees that, when they wish
      to use alternate timekeeping systems, they must request approval in advance from
      their cognizant agency. Grantees that use alternative labor charging methods
      without approval will be required to develop a corrective action plan with a deadline
      for approval.

      OIG Comment

      The Corporation’s planned actions meet the intent of the recommendations. We will
      review the on-line training course for timesheet and other financial management
      requirements.


Finding 3. Costs charged to grants and reported on the Financial Status Reports
(FSRs) 1 were unallowable, unallocable, or not supported with adequate
documentation.

Fifty-four percent (7 of 13) of grantees selected did not comply with applicable OMB
Circulars, CFRs, or grant financial management provisions. Additionally, 2 of the 7
grantees were not in compliance in two or more areas.


1
    For the purpose of this report, Federal Financial Report (FFR) and FSR may be used interchangeably.

                                                      6
We questioned costs of $12,962 charged by two grantees based on allowability and
unsupported costs. As a result of this audit, we questioned one grantee’s cost of $582
based on allowability. That grantee then completed a review of all cost charged to the
grant, and voluntarily reimbursed the Corporation $6,631 2 .

One of the grantees we tested used accounting software that allowed data to be altered
without authorization and did not maintain an account history or log of the altered data.

45 C.F.R. § 2541.200 Uniform Administrative Requirements for Grants and Cooperative
Agreements to State and Local Governments Subpart C – Post-Award Requirements,
Standards for Financial Management Systems, subsection (b)(1) requires that financial
management systems produce financial reports that are “accurate, current, and
complete disclosure of the financial results of financially assisted activities must be made
in accordance with the financial reporting requirements of the grant or subgrant.”

Two of the grantees we tested charged costs to the grant that were incurred outside of
the grant period, including expenses for training and travel. One of these grantees
charged costs, which were incurred before the grant period, for employment advertising
for a project director. Neither of the grantees requested or was granted prior approval in
accordance with the regulations.

45 C.F.R. § 2543.28 Grants and Agreements with Institutions of Higher Education,
Hospitals, and other Non-Profit Organizations Subpart C – Post-Award Requirements
Financial and Program Management, Period of availability of funds states that “[w]here a
funding period is specified, a recipient may charge to the grant only allowable costs
resulting from obligations incurred during the funding period and any pre-award costs
authorized by the Federal awarding agency.”

Two of the grantees charged unallowable costs to their grant. One grantee charged
entertainment costs as part of a training seminar, and the other charged time for the
Director’s fundraising activities.

OMB Circular A-122, Cost Principles for Non-Profit Organizations Attachment B.
Selected Items of Cost, states in paragraph 14. Entertainment costs, “[c]osts of
entertainment, including amusement, diversion, and social activities and any costs
directly associated with such costs (such as tickets to shows or sports events, meals,
lodging, rentals, transportation, and gratuities) are unallowable.” It also states in
paragraph 17. Fund raising and investment management costs that “[c]osts of organized
fund raising, including financial campaigns, endowment drives, solicitation of gifts and
bequests, and similar expenses incurred solely to raise capital or obtain contributions
are unallowable.”

Two grantees did not provide adequate support for the Federal and match costs they
charged to the grant. One grantee charged match and other costs based on data
contained on an Excel spreadsheet, but the cost could not be traced to the accounting
system. Another grantee charged travel costs, but the source documentation did not
identify that the travel was for the grant.


2
 The grantee mailed a check to the Department of Health and Human Services, the Corporation’s paying
agent, on October 20, 2008.

                                                  7
OMB Circular A-122, Cost Principles for Non-Profit Organizations Attachment A. General
Principles Basic Considerations, paragraph 2. Factors Affecting Allowability of Costs,
states that “[t]o be allowable under an award, costs must…[b]e reasonable for the
performance of the award and be allocable thereto under these principles…[b]e
adequately documented.”

45 C.F.R. § 2543.23 Grants and Agreements with Institutions of Higher Education,
Hospitals, and Other Non-Profit Organizations Subpart C – Post-Award Requirements
Financial and Program Management, Standards for Financial Management Systems,
says that accounting records, including cost accounting records, should be supported by
source documentation.

Two of the grantees tested had financial management systems that could not identify the
source and application of grant costs. The financial management system for one of
those grantees had the capability to track the source and application of grant costs.
However, it did not utilize the capability and could not identify the source and application
of funds with the system’s configuration at the time of our site visit. Our testing of a
sample of costs at the other grantee revealed that it could not support costs charged as
match or payroll.

45 C.F.R. § 2541.200 Uniform Administrative Requirements for Grants and Cooperative
Agreements to State and Local Governments Subpart C – Post-Award Requirements,
Standards for Financial Management Systems and 45 C.F.R. §2543.21 requires records
that adequately identify the source and application of funds for Federally sponsored
activities.

One of the grantees charged health care costs over the provisional limit for the
Corporation’s share. During year two of the grant, the Corporation granted retroactive
pre-approval for the grantee’s health care costs.

AmeriCorps Special Provisions 2006, Living Allowances, Other In-Service Benefits And
Taxes Obtaining Health Care Coverage states that “[y]ou may obtain health care
insurance for your members through any provider you choose, as long as the policy
provides the minimum benefits and is not excessive in cost. If you use a health care
policy that charges more than $150 per month to the Corporation you must send a copy
of the policy along with a summary of its coverage and costs to the Corporation’s Office
of Grants Management.”

One grantee used an adjusting journal entry to inflate its FSR. The grantee stated it was
directed by the Corporation’s Grants Officer to report the entire amount of the grant on
the initial FSR. The adjusting journal entry was used to overstate expenses on the
general ledger and for reconciliation to the FSR and was immediately reversed after the
reconciliation.

45 C.F.R § 2543.21(b)(1) states that “[r]ecipents’ financial management systems shall
provide…[a]ccurate, current and complete disclosure of the financial results of each
federally-sponsored project or program in accordance with the reporting requirement set
forth in [45 C.F.R. §2543.52].”




                                             8
In all cases of noncompliance discussed above, the Corporation did not request or
receive documentation that supports the cost applied to the grants. As a result,
unsupported and unallowable costs and match cost were charged to the grant.

Recommendation 3

We recommend that the Corporation:

   3a.   Resolve and recover questioned costs of $12,380 charged to a grant.

   3b.   Ensure that grants officers review grantees’ FMS, for cost and match issues,
         and to determine whether grantees are aware of which cost principles and CFR
         requirements apply to its organization, document issues, and follow through to
         resolve any issues noted.

   3c.   Conduct a site visit or desk review within one year of grant award to ensure
         grantees are adhering to applicable cost principles and CFR requirements.

   Corporation Response

   The Corporation agrees with the recommendations. The Field Financial
   Management Center (FFMC) is following up on the questioned costs from the RSVP
   grant. The grantee relinquished the grant and the Corporation will determine
   amounts owed when the grant is closed. The Corporation believes that use of the
   FSS, on-line training, site visits and desk reviews, in combination, will ensure
   grantees have financial management policies and procedures in place that adhere to
   the appropriate cost principles.

   OIG Comment

   The Corporation’s planned actions meet the intent of the recommendations.


Finding 4. Grantees internal controls were not adequate or they lacked written
internal control policies and procedures.

Forty-six percent (6 of 13) of selected grantees did not have internal controls in place to
minimize risk and maximize the prevention or detection of waste, fraud, or abuse. The
most common deficiency we found was the lack of policies and procedures related to
separation of duties. Another grantee did not have adequate payroll controls and the
payroll account was not accurate, one did not have controls in place to prevent
manipulation of the accounting system without authorization. Also, one grantee did not
have its control measures adequately documented or demonstrate that the internal
control policies were clearly articulated throughout the organization.

45 C.F.R. § 2541.200(b)(3) and 45 C.F.R. § 2543.21(b)(3) require that effective control
and accountability must be maintained for all grant funds and real and personal property,
and other asset. Grantees and subgrantees must adequately safeguard all such
property and must assure that it is used solely for authorized purposes.

Without effective internal control policies that are documented and articulated throughout

                                             9
the organization, grantees may lose control and accountability over funds, property, and
other assets; and may be unable to determine whether grant funds were used for
authorized purposes.

Recommendation 4

We recommend that the Corporation:

   4.    Before making a grant award, verify that new grantees have written internal
         control policies and procedures that include separation of duties, asset
         management (including preparing and signing checks), recordation of
         transactions, and reconciliation of accounts before grant award.

   Corporation Response

   The Corporation agrees that grantees must have written internal control and other
   financial and program management policies and procedures in place, but does not
   agree that verification must be done prior to the award. The grants officers can verify
   the existence of effective written internal control and other financial and program
   management policies and procedures during site visits or desk reviews that are
   conducted within one year of grant award, in accordance with policy. The
   Corporation believes these processes provide sufficient verification and that the
   benefits outweigh the costs of conducting the verification prior to the award.

   OIG Comment

   The OIG requested a copy of the policy requiring the monitoring of new grantees
   within 12 months of grant award. The Corporation provided its Monitoring Planning
   Guidance and Implementation Strategy for FY 2009. However, this document does
   not mandate all new grantees receive either a site visit or desk review within 12
   months of its initial grant award. After discussions with the Corporation’s Directors of
   Grants Management and Award Oversight and Monitoring, the Director of Grants
   Management said the revision of CFO Policy 029, to be completed by December 31,
   2009, will include the mandate.

   The Corporation’s planned actions meet the intent of the recommendations.
   However, the OIG will review and comment on the revised CFO Policy 029 before it
   is finalized.

Finding 5. The risk level assigned using the Corporation’s Monitoring Planning
Assessment Criteria “Weighting” / Point Values was not consistent with risk
indicators.

In two cases, the risk level assigned by Grants Officers for new grantees was not
consistent with the risk reported in audits for OMB A-133 Audits of States, Local
Governments and Non-Profit Organizations. One of the 13 tested grantees was
assessed as a low risk, in eGrants, despite having received an adverse opinion in its
OMB Circular A-133 audit report. This grantee was not identified as a low risk in the
audit report, which included an adverse opinion on the financial statements, significant



                                            10
deficiencies 3 in internal control over compliance and other deficiencies considered
material weaknesses. An adverse opinion is only issued in extreme circumstances. The
audit report noted multiple material weaknesses and was used to formulate the eGrants
assessment.

Another grantee, also assessed as low risk in eGrants, received a qualified opinion in its
OMB Circular A-133 audit report. A qualified opinion means that, in the judgment of the
auditors, the financial statements may not fairly present the financial position and
operating results of the firm. The grantee, which was not identified as low risk in the
audit report, was also found to have material weakness related to both the financial
statements and Federal awards. The risk assessment differences were due to the
manner in which the Corporation computes risk.

Based on the Corporation’s Monitoring Planning Assessment Criteria “Weighting” / Point
Values, audit findings are worth 50 points. The Monitoring Planning Assessment Criteria
“Weighting” / Point Values scale does not take into consideration the number or severity
of the audit findings. A grantee receiving a rating between 0 and 79 points, based on
standard predetermined scoring, is considered low risk using these point values
regardless of the severity of the underlying issue(s). However, a grantee with multiple
material weaknesses identified in its A-133 audit should be assessed as a medium- to
high-risk grantee.

Recommendation 5

We recommend that the Corporation:

    5.      Evaluate the Corporation’s Monitoring Planning Assessment Criteria
            “Weighting” / Point Values and change as necessary to ensure that significant
            deficiencies result in the appropriate risk rating.

    Corporation Response

    The Corporation agrees with the recommendation and has taken corrective action.
    As part of its annual procedures, it will review the assessment criteria in preparation
    for the assessments conducted each July to develop its annual monitoring plan. The
    2009 assessment is complete. The Corporation is also conducting a more extensive
    analysis of the assessment data collected over the last three years.

    OIG Comment

    The Corporation’s actions meet the intent of the recommendation.




3
  According to Government Auditing Standards July 2007 Revision (GAO-07-731G) a significant deficiency
is a deficiency in internal control, or combination of deficiencies, that adversely affects the entity’s ability to
initiate, authorize, record, process, or report financial data reliably in accordance with GAAP such that there
is more than a remote likelihood that a misstatement of the entity’s financial statements that is more than
inconsequential will not be prevented or detected.

                                                        11
Finding 6. Indirect costs rates, that exceeded statutory limitations, were charged
to grants without an approved Negotiated Indirect Cost Rate Agreements (NICRA)
in place.

Twenty-three percent (3 of 13) of selected grantees charged indirect costs to grants in
excess of statutory limitations without and approved NICRAs.

For 1 of the 3 selected grantees without an approved NICRA, the Notice of Grant Award
stated that indirect costs should not be paid until the Corporation received an approved
NICRA; however, indirect costs were submitted by the grantee and paid by the
Corporation. On January 6, 2009, this grantee provided the Corporation a letter from the
Department of Health and Human Services, dated December 10, 2008, with approved
final indirect rates for 2002-2007 and provisional rates for 2008-2009. Another of the
three grantees, without an approved NICRA, for which we questioned $1,623, stated it
would voluntarily reimburse indirect costs charged to the grant in excess of the statutory
limitation. The third grantee and Corporation personnel stated that the grantee had
submitted the necessary paperwork, however it was misplaced. After we notified the
grantee and Corporation that a NICRA was not in place, a provisional indirect cost rate
for this grantee was approved on June 24, 2008.

OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment A.
General Principles paragraph E.2 Negotiation and approval of rates states:

       b. A non-profit organization which has not previously established an indirect cost
          rate with a Federal agency shall submit its initial indirect cost proposal
          immediately after the organization is advised that an award will be made and,
          in no event, later than three months after the effective date of the award.

              *   *   *

       g. The results of each negotiation shall be formalized in a written agreement
          between the cognizant agency and the non-profit organization. The cognizant
          agency shall distribute copies of the agreement to all concerned Federal
          agencies.

One of the three grantees that did not have an approved indirect cost rate agreement
was a for-profit agency. Federal Acquisition Regulations Subpart 42.7 – Indirect Cost
Rates states in paragraph 42.703-1 Policy that:

       (b) Billing rates and final indirect cost rates shall be used in reimbursing indirect
       costs under cost-reimbursement contracts and in determining progress payments
       under fixed-price contracts.

       (c) To ensure compliance with 10 U.S.C. 2324(a) and 41 U.S.C. 256(a)—

             (1) Final indirect cost rates shall be used for contract closeout for a
             business unit, unless the quick-closeout procedure in 42.708 is used.
             These final rates shall be binding for all cost-reimbursement contracts at
             the business unit, subject to any specific limitation in a contract or advance
             agreement; and


                                            12
             (2) Established final indirect cost rates shall be used in negotiating the final
             price of fixed-price incentive and fixed-price redeterminable contracts and in
             other situations requiring that indirect costs be settled before contract prices
             are established, unless the quick-closeout procedure in 42.708 is used.

45 C.F.R. §2540.110 General Administrative Provisions, Subpart A – Requirements
Concerning the Distribution and Use of Corporation Assistance, Limitation on use of
Corporation funds for administrative costs, subsection (a)(3)(i) states “[l]imit the amount
or rate of indirect costs that may be paid with Corporation funds under a grant or
subgrant to five percent of total Corporation funds expended.”

Because the Corporation did not review indirect costs applied to the grants to ensure
compliance with applicable regulations, grants were overcharged when grantees
charged indirect cost rates in excess of the statutory limitation without an approved
NICRA.

Recommendation 6

We recommend that the Corporation:

   6a.   Resolve and recover questioned costs of $1,623 charged to the grant.

   6b.   Enforce statutes and regulations that limit indirect costs charged to grants to
         the standard general and administrative rate unless the grantee has an
         approved NICRA on file with the Corporation.

   6c.   Review indirect costs reported on new grantees’ initial FSRs to ensure only
         authorized indirect costs are charged to Corporation grants.

   Corporation Response

   The Corporation agrees with the recommendations. The questioned $1,623 in
   indirect costs have been disallowed. Proper allocation and limitations on indirect
   cost rates will be included in the on-line training program. The Corporation will
   review its current processes to ensure that indirect costs reported are within
   appropriate limitations.

   OIG Comment

   The Corporation’s planned actions meet the intent of the recommendations.
   Although The Corporation’s response did not specifically address ensuring that only
   authorized indirect costs are charged to Corporation grants, enforcement of statutes
   and regulations that limit indirect cost charged to grants will ensure that only
   authorized indirect costs are applied to Corporation grants. We will review the on-
   line training program regarding indirect costs charged to grants.




                                             13
Finding 7. Grantees did not have written policies and procedures for grant
management in accordance with applicable regulations.

Thirty-one percent (4 of 13) of selected grantees did not have policies and procedures in
place as required by the CFR’s Standards for Financial Systems. Moreover, the
Corporation did not verify that new applicants had written policies and procedures in
place related to the draw down of Federal funds.

The grantees did not have written policies in place for complying with applicable cost
principles and conditions of the grant award, such as a policy concerning cash
management.

45 C.F.R. §2541.200 Uniform Administrative Requirements for Grants and Cooperative
Agreements to State and Local Governments Subpart C – Post-Award Requirements,
Standards for Financial Management Systems states at subsection (b)(7) Cash
management:

       Procedures for minimizing the time elapsing between the transfer of funds from
       the U.S. Treasury and disbursement by grantees and subgrantees must be
       followed whenever advance payment procedures are used. Grantees must
       establish reasonable procedures to ensure the receipt of reports on subgrantees’
       cash balances and cash disbursements in sufficient time to enable them to
       prepare complete and accurate cash transactions reports to the awarding
       agency. When advances are made by letter-of-credit or electronic transfer of
       funds methods, the grantee must make drawdowns as close as possible to the
       time of making disbursements. Grantees must monitor cash drawdowns by their
       subgrantees to assure that they conform substantially to the same standards of
       timing and amount as apply to advances to the grantees.

Three grantees did not have written policy to minimize the time elapsing between the
transfer of funds from the U.S. Treasury and payment of expenses.

45 C.F.R. §2543.21 Grants and Agreements with Institutions of Higher Education,
Hospitals, and Other Non-Profit Organizations Subpart C – Post-Award Requirements
Financial and Program Management, Standards for Financial Management Systems,
states at subsection (b)(5):

       Recipients’ financial management systems shall provide for the following:…
       Written procedures to minimize the time elapsing between the transfer of funds to
       the recipient from the U.S. Treasury and the issuance or redemption of checks,
       warrants or payments by other means for program purposes by the recipient. To
       the extent that the provisions of the Cash Management Improvement Act (CMIA)
       (Pub. L. 101–453) govern, payment methods of State agencies, instrumentalities,
       and fiscal agents shall be consistent with CMIA Treasury-State Agreements or
       the CMIA default procedures codified at 31 CFR part 205, ‘‘Withdrawal of Cash
       from the Treasury for Advances under Federal Grant and Other Programs.’’ and
       (b)(7) (6) “Written procedures for determining the reasonableness, allocability
       and allowability of costs in accordance with the provisions of the applicable
       Federal cost principles and the terms and conditions of the award.



                                           14
Grantees without documented policies and procedures for complying with Standards for
Financial Management Systems may charge unallowable costs to grants or overdraw
grant funds.

Recommendation 7

We recommend that the Corporation:

   7.    Before making a grant award, verify that grantees have written financial
         management policies and procedures, including policies for determining
         reasonableness, allocability, and allowability of costs and draw downs of
         Federal funds.

   Corporation Response

   The Corporation agrees that grantees must have written financial management
   policies and procedures in place, but it does not agree that verification must be done
   prior to the award. It states that grants officers can verify written policies and
   procedures exist and confirm they are operating as required during site visits or desk
   reviews that are conducted within one year of grant award. In addition, the on-line
   training course will include instructions on what written policies and procedures
   grantees must have in place, including policies for ensuring costs are reasonable,
   allowable and allocable. The Corporation believes these processes provide
   sufficient verification and benefits that outweigh the costs of conducting the
   verification prior to awarding the grant.

   OIG Comment

   The OIG requested a copy of the policy requiring monitoring of new grantees within
   12 months of grant award. The Corporation provided its Monitoring Planning
   Guidance and Implementation Strategy for FY 2009. In our opinion, this document
   does not mandate all new grantees receive either a site visit or desk review within 12
   months of its initial grant award. After discussions with the Corporation’s Directors of
   Grants Management and Award Oversight and Monitoring, the Director of Grants
   Management said the revision of CFO Policy 029, to be completed by December 31,
   2009, will include the mandate.

   The Corporation’s planned actions meet the intent of the recommendations.


OBJECTIVE, SCOPE, AND METHODOLOGY

We conducted this audit in accordance with generally accepted government audit
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for out findings and
conclusions based on out audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

The objective of the audit was to determine whether new grantees’ responses to the
Corporation’s Financial Management Survey (FMS) can be relied upon in determining

                                           15
whether the grantees' financial systems meet OMS Circular and grant provision
requirements. The audit tested new grantees receiving awards in Calendar Year (CY)
2006. For the purpose of this review, a grantee was considered "new" if it had not
received Corporation grant funds during Fiscal Year (FY) 2005. We assessed the
adequacy of the grantees' system documentation, internal controls, and the financial
management system. We conducted our audit between February 9, 2007, and April 1,
2009. Our audit was conducted in compliance with generally accepted government audit
standards.

During the period covered by our audit, Corporation awarded $10.3 million to 50 new
grantees in twelve different grant programs. We judgmentally selected a sample of
grantees, intentionally including the majority of the programs represented in the
population. Our test sample of 13 new grantees included nine programs with an award
total of $2.5 million and individual awards ranging from $25,000 to $500,000.


BACKGROUND

The Corporation appropriation for FY 2006 was approximately $927 million, of which
approximately $685 million was used to provide grants to States, nonprofit organizations,
tribes, and territories. The majority of awards were provided to organizations that had
received grants in the prior year. The Corporation made $10.3 million in awards valued
at $5,000 or more to 50 organizations it identified as new grantees in Calendar Year
2006. The Corporation used the Financial Management Survey form as a tool to
determine if new grantees had systems in place to adequately account for and
safeguard Federal funds and to certify that their financial systems met all requirements
of the OMS Circulars.

Prior OIG audits have found grantees whose financial systems had weaknesses in
accounting for and safeguarding Federal funds. For example, in OIG Report Number
04-23, dated September 20,2004, we found that the audited grantee had completed an
FMS and certified that its financial management system had the capability to manage
Federal funds in accordance with required standards. The audit showed that the
grantee had never implemented the key financial systems and controls it had certified on
the FMS. This lack of grantee compliance resulted in more than $100,000 in questioned
costs.


EXIT CONFERENCE

We discussed the contents of this report with Corporation representatives at an exit
conference on April 1, 2009. A draft report was provided to Corporation representatives
on April 14, 2009. We summarized the Corporation's comments in the findings section
of this report and included their full comments in Appendix C.




Stuart Axenfeld, Assistant Inspector General for Audit
Office of Inspector General
Corporation for National and Community Service

                                           16
          APPENDIX A

Financial Management Survey Form
                       Corporation for National and Community Service
                         FINANCIAL MANAGMENET SURVEY


The information collected by this survey will be used by the Corporation for National and Community
Service exclusively as a tool to assess the capacity of your organization to manage federal funds and will
become the basis for determining the areas of your organization’s financial systems that may warrant
technical assistance.

LEGAL NAME OF ORGANIZATION:
ADDRESS:
CITY/STATE/ZIP CODE:

INSTRUCTIONS: For this survey to be complete, please: 1) respond to each applicable question,
             2) attach a copy of documents requested, and 3) provide comments/explanations.

While section “A. General Information” can be completed by the executive officer of your organization, we recommend
that sections “B. Funds Management” and “C. Internal Controls” be completed by your fiscal or accounting officer.
A. GENERAL INFORMATION

1. Is your organization incorporated as a nonprofit?
                NO
                YES In what state? ___________________________________________________
               Please attach a copy of the most recently filed IRS Form 990.

2. Has your organization received a federal grant or cost-type contract award in the last 2 years?
         YES  NO
    If “Yes,” please identify your federal cognizant/oversight agency:
         Federal Agency:
         Name of Contact:
         Telephone:
    If “Yes,” please attach a schedule showing the total federal dollars awarded to your
organization by granting agency for each of the two most recently completed fiscal years.

Please answer No. 3 if your organization has ever received funding from the Corporation for
            National and Community Service.
3. Describe how your organization has received Corporation funding:
        Directly from the Corporation?            YES  NO
        If “Yes,” specify grant number[s]: _________________________________________________
        Indirectly through a state commission, nonprofit organization, or university?
         YES  NO
        If “Yes,” specify grant number[s]: _________________________________________________

4. Has your organization been audited by a Certified Public Accountant firm within the past two years?
        YES  NO
       If “Yes,” please attach a copy of the most recent audit.

5. Has your organization completed an OMB A-133 audit within the past two years?
        YES  NO  N/A
       If “Yes,” please attach a copy of most recent A-133 audit.
       If “No,” is one currently underway or scheduled?
        YES  NO
       Provide scheduled completion date: ________________
                     Corporation for National and Community Service
                       FINANCIAL MANAGMENET SURVEY

    6. Does your organization have established, written policies relating to the following areas?
              Accounting Practices              YES  NO
              Management Controls               YES  NO
              Personnel Policies                YES  NO
              Salary Scales                     YES  NO
              Employee Benefits                 YES  NO
              Travel reimbursement              YES  NO
              Procurement                       YES  NO
              Other ____________________

B. FUNDS MANAGEMENT

1. Check which of the following books of account are maintained by your organization:
       General Ledger
       Cash Receipts Journal
       Cash Disbursements Journal
       Payroll Journal
       Income (Sales) Journal
       Purchase Journal
       General Journal
       Other ________________________________________________________

2. How frequently do you post to the general ledger?
        Daily  Weekly  Monthly  Other
3. Does your accounting system track the receipt and disbursement of funds by each grant or funding
   source?
        YES  NO
4. Does your accounting system enable you to track and document disbursement of funds from original
   invoice through final payment?
        YES  NO
5. Does your organization use a job cost system?
        YES  NO
6. Are common or indirect costs accumulated into cost pools for allocation to projects, contracts and
   grants?
        YES  NO
7. Check the categories of costs your organization includes as an administrative cost:
        Salaries and expenses of executive officers
        General administration, including accounting, personnel, budget and planning
        Personnel administration
        Liability Insurance
        Depreciation or use allowances on buildings and equipment
        Costs of operating and maintaining facilities
        Management information systems
        Audit, Contracting, or Legal Services
        Other _________________________

8. Does your accounting system provide for the recording of actual grant/contract costs according to
   categories of your approved budget[s], and provide for current and complete disclosure?
                YES  NO
9. Are personnel activity reports, i.e., timesheets, maintained by funding source and project for each
   employee to account for total actual hours [100%] devoted to your organization?
                         Corporation for National and Community Service
                           FINANCIAL MANAGMENET SURVEY
          YES        NO

Please answer Nos. 10, 11, and 12 if your organization currently receives federal funds.
10. Which one of the following OMB Circulars defining federal cost principles applies to your
    organization?
         A-21
         A-87
         A-122

11. Which one of the following OMB Circulars defining federal administrative requirements applies to
    your organization?
        A-102
        A-110

12. Who in your organization is responsible for determining allowance of costs consistent with federal
    cost principles governing federal grants and contracts?
        Please specify Name/Title: ______________________________________________________

C. INTERNAL CONTROLS

1. Are the duties of the accountant/bookkeeper/record keeper separate from cash functions (receipt or
   payment of cash)?
        YES  NO
2. Are checks signed by individual[s] whose duties exclude recording cash received, approving vouchers
   for payment and the preparation of payroll?
        YES  NO
3. Are purchase approval methods documented and communicated?
        YES  NO
4. Are accounting entries supported by appropriate documentation?
        YES  NO
5. Are cash or in-kind matching funds supported by appropriate documentation?
        YES  NO
6. Are employee activity reports, i.e., timesheets, distributions, or semi-annual certifications,
   appropriately signed by the employee or by a responsible supervisory official having first hand
   knowledge of the activities performed by the employee?
        YES  NO
7. Are employees who handle funds bonded against loss by reasons of fraud or dishonesty?
        YES  NO

Preparer’s Comments/Explanations:




The total number of attachments is ______       including: Audit[s]                              
                                                           Schedule of Federal Funds             
                                                           IRS Form 990, if Nonprofit            
Please attach numbered sheets as necessary.
                    Corporation for National and Community Service
                      FINANCIAL MANAGMENET SURVEY



                           PREPARER CERTIFICATION:
                           By my signature I certify that the above information is complete and correct
                           to the best of my knowledge.
SIGNATURE OF
                           __________________________________________________________
PRIMARY PREPARER:


NAME(S) OF PREPARER(S):    _____________________________________            DATE:


TITLE(S) OF PREPARER(S):   _____________________________________


TELEPHONE:                                                      FAX:
E-MAIL:




FOR INTERNAL USE ONLY at the Corporation for National and Community Service

 REVIEWED BY: ___________________________________________ DATE: __________________
 COMMENTS:
                                      APPENDIX B


                         New Grantees Selected for FMS Sample



Program                                                                          Award
          Grant Number                    Legal Applicant Name
  Type                                                                           Amount
Tribes    06TNHNE001       Omaha Tribe                                           $151,155
NATL      06NDHCA001       Prevent Child Abuse California                         $50,000
NATL      06NDHDC004       National Student Partnership                          $301,564
NATL      06NDHPA001       Public / Private Ventures (AMACHI)                    $357,803
SCP       06SCAMA001       Family Services of Central Massachusetts              $247,512
SCP       06SCWNM003       HELP-NM                                                $51,980
FGP       06SFWNM003       HELP-NM                                                $38,229
FGP       06SFSMS001       Yazoo County Board of Supervisors                     $151,675
RSVP      06SRWNM002       Child & Family Services, Inc.                          $50,999
RSVP      06SRAMA001       United Way of Hampshire County                        $159,327
K12SB     06KSHVA001       National Association of Secondary School Principals   $325,053
MLK       06MKADC002       National Alliance of Faith and Justice                 $88,650
TTA       06TAHMD001       AFYA, INC.                                            $499,932
VISTA     06VSADC025       Little Lights Urban Ministries                         $25,000


                                   Table of Acronyms

           FGP           Foster Grandparent Program
           K12SB         Learn and Serve America K-12 School Based
           MLK           Martin Luther King Day
           NATL          AmeriCorps*National
           RSVP          Retired Senior Volunteer Program
           SCP           Senior Companion Program
           Tribes        AmeriCorps*Indian Tribes
           TTA           Training and Technical Assistance
           VISTA         AmeriCorps*VISTA (Volunteers in Service to America)
           NM            New Mexico
                              APPENDIX C

Corporation of National and Community Service Response to the Draft Report
NATIONAL&:
COMMUNITY
SERVICE~
To:              StuartJ~xenfeld~ Assistant Inspector                     General for Audit
                      _I'l/     /! .U;   ~/ ' . ~ .
                     11\.-/1"';:.4.47"' /1·~sf!-'Uj.~>t4d'/;.'--" "
From:            Rocco Gaudio/ Deputy CFO for Grants and Fi~.!2fin~ja.l M
                 Peg Rosenberly, Director of Grants ManagemJ~~~~~--I

Date:            July 9,2009                                                    U
Subj:            Response to OIGDraft Report on the Audit of Financial Management Survey
                 Responses of NeW Grantees


Thank you for the opportunity to comment on the OIG audit of the Corporation's Financial
Management Survey. The Corporation's Acting CEO requested that we respond to the draft
report. This response is the Corporation's proposed management decision. We are providing you
with an overall corrective action plan that implements the recommendations in the report through
an alternative approach to the Financial Management Survey (FMS). The OIG's report was very
helpful to the Field Financial Management Center and the Office of Grants Management as staff
considered alternatives to our current approach.

Recommendation #1: We recommend that the Corporation:

1a. Review and maintain documentation of its review of all FMSs received from applicants or
    grantees.
lb. Document weaknesses identified as a result of the FMS review.
1c. Provide early training to grantees on financial management of Federal grants and timely
    technical assistance to grantees with weaknesses identified in recommendation lb.
1d. Provide training to Corporation staff on the criteria for requiring a FMS from new grantees.
Ie. Develop and implement, in eGrants, a method to identify new grantees in any given year.

      Management Decision: The Corporation agrees with the recommendations, but will
      implement them using a different tool than the current financial survey. The Corporation has
      a more extensive financial systems survey that staff members use in preparation for site visits
      and in desk reviews (see attached). That systems survey requires grantees to provide
      extensive documentation of their financial systems, policies and procedures, and internal
      controls in preparation for desk reviews and site visits. Weare replacing the current survey
      with the more extensive systems survey starting with the 2010 grarit cycle. Grantees must
      submit the documentation required in the financial systems review prior to receiving their



                                                                      1
   grant. By December 31, 2009, we will revise our CFO Policy 029 and our financial
   assessment processes to reflect these changes.

   In addition, the Corporation will develop an on-line training course that new grantees will
   complete during the award process. Our current agreements with our technical assistance
   providers include funds to develop on-line training courses. The training program will cover
   the requirements under the OMB circulars, paying particular attention to problem areas, such
   as time-keeping, written internal control procedures, allowable costs and application of
   indirect cost rates. It will include periodic quizzes to ensure grantees understand and can
   apply the information to their organization type. We expect to have the new course
   developed and available on-line by March 31, 2010, in advance of the next award cycle.

   With respect to Recommendation 1a, IG staff may not have seen evidence on the survey form
   that confirms a grants officer reviewed the survey because grants officers incorporate the
   results of their reviews into the GO certification process in eGrants. Of the 20 surveys OIG
   staff identified as showing no evidence of GO review, 17 of them were appropriately
   recorded in eGrants as having been reviewed. The eGrants record includes either an
   affirmation that the grantee has the financial capacity to manage a federal grant or that the
   survey was not required or pending. For the three remaining, the eGrants record was not
   clear and the grants officers should have explained the status of the survey in their comments
   in eGrants.

   When we implement the more extensive financial systems review process, eGrants will
   remain the system of record, but GOs will record their review in the monitoring components
   of eGrants where we can include more extensive comments than we can during the GO
   certification process. We will revise CFO Policy 029 to recognize eGrants as the system of
   record for documenting financial systems reviews and train GOs on the documentation
   requirements and the criteria for review of the systems survey, including the A-133 audit.
                                                                    ,
   As for developing a way to identify new grantees in eGrants, the Corporation currently
   identifies new grantees during each grant competition. GOs run a report in Discoverer (the
   eGrants' reporting tool) which flags organizations that have not previously received funding
   from CNCS. This report identifies new grantees that need an account in the HHS Payment
   Management System and who should receive a pre-award assessment as part ofthe award
   process. If the new organization is ultimately awarded a grant, the GO records this
   information as part of the Corporation's annual monitoring assessment process. One of the
   assessment criteria identifies new CNCS recipients. If the grantee meets this criterion, the
   GO enters ''yes'' on the monitoring assessment screen in eGrants. (Open)

Recommendation 2: We recommend that the Corporation:

2a. Ensure the grantees' timesheets or time and attendance system complies with OMB Circular
     and grant provisions as part of the FMS review.
2b. Evaluate any alternative labor charging method used by a grantee 'and correct or approve as
     needed.
2c. Provide training on time and attendance requirements to new grantees.


                                               2
   Management Decision: The Corporation agrees with recommendation 2a and is taking
   corrective action. As noted above, the Corporation is developing an on-line training course
   that we will require all new grantees to complete before getting their awards. That course
   includes instructions on what written policies and procedures grantees must have in place,
   including Federal requirements for time and attendance reporting. (Open)

   Regarding recommendations 2a and 2b, we review timekeeping systems when we conduct an
   on-site or desk compliance review of a new grantee, including a review of the organization's
   policies as well as sampling records. Since new grantees are monitored within one year of
   their first award (see response to recommendation 3c), time and attendance compliance is
   addressed in detail within a reasonable period following the grant award. In this manner, we
   are addressing actual performance rather than hypothetical performance. Additionally, by
   performing checks of records post-award, we will receive feedback on how effective the on-
   line training program is. In order to address the larger risks associated with alternate labor
   charging methods, the training will also inform grantees that when they wish to use alternate
   timekeeping systems, they must request approval from their cognizant agency in advance. As
   with any compliance shortcoming that a grants officer may identify, ifa grantee is using an
   alternate labor charging method without cognizant agency approval appropriate remedies will
   be implemented. These will include, but not be limited to, imposing a deadline to obtain
   approval as well as being required to develop a corrective action plan. (Action completed)

Recommendation 3: We recommend the Corporation:

3a. Resolve and recover questioned costs of$12,380 charged to a grant.
3b. Ensure that grants officers review grantees' FMS, for cost and match issues, and to determine
    whether grantees are aware of which cost principles and CFR requirements apply to its
    organization, document issues, and follow through to resolve any issues noted.
3c. Conduct a site visit or desk review within one year of grant award to ensure grantees are
    adhering to applicable cost principles and CFR requirements.

   Management Decision: The Corporation agrees with the recommendations and is taking
   corrective action. The FFMC is following up on the questioned costs from the RSVP grant.
   The grantee has relinquished the grant and we will determine amounts owed as we close the
   grant. The Corporation's decision to use the financial systems survey to replace the FMS,
   along with the site visit or desk review grants officers conduct within a year of the grant
   award addresses Recommendations 3b and 3c. Through site visits and desk reviews, we
   determine if grantees have financial management policies and procedures in place and follow
   them, understand and follow the appropriate cost principles, reconcile their general ledger to
   their federal financial reports, and have appropriate asset management systems and
   appropriate internal control policies and procedures in place. Along with the required training
   courses and the more robust financial system survey, this process addresses the specifics in
   your recommendations and will provide the Corporation with better assurance that a new
   grantee can manage funds effectively. In addition, the on-line required training will cover
   allowable costs, match documentation and other topics included in the Administrative
   Requirements and Cost Principles. (Open)


                                                3
Recommendation 4: We recommend that the Corporation, before making a grant award, verify
that new grantees have written internal control policies and procedures that include separation of
duties, asset management (including preparing and signing checks), recordation of transactions,
and reconciliation of accounts before grant award.

   Management Decision: The Corporation agrees that grantees must have written internal
   control and other financial and program management policies and procedures in place, but
   does not agree that the verification must be done before award. In accordance with
   Corporation policy, grants officers conduct site visits or desk reviews within the first year of
   grant operation to verify that grantees have written internal control policies and procedures in
   place and confirm they are operating as required. In addition, the on-line course grantees will
   take includes instructions on what written policies and procedures grantees must have in
   place, including separation of duties, reconciliation of accounts and asset management.
   These processes provide sufficient verification and benefits that outweigh the costs of
   conducting the verification before awarding the grant. (Open)

Recommendation 5: We recommend that the Corporation evaluate the Corporation's
Monitoring Planning Assessment Criteria "Weighting"lPoint Values and change as necessary to
ensure that significant deficiencies result in the appropriate risk rating.

   Management Decision: The Corporation agrees with the recommendation and has taken
   corrective action. As part of our annual procedures, we review the assessment criteria in
   preparation for the assessments we conduct each July to develop our annual monitoring plan.
   We completed that process for 2009 in June. This year, we are also conducting a more
   extensive analysis of the assessment data collected over the last three years. (Action
   completed.)

Recommendation 6: We recommend that the Corporation:

6a. Resolve and recover questioned costs of $1 ,623 charged to the grant.
6b. Enforce statutes and regulations that limit indirect costs charged to the grants to the standard
    general and administrative rate unless the grantee has an approved NICRA on file with the
    Corporation.
6c. Review indirect costs reported on new grantees' initial FSRs to ensure only authorized
    indirect costs are charged to Corporation grants.

   Management Decision: The Corporation reviewed the $1,623 in indirect costs questioned
   as above the statutory limit and agrees the grantee claimed more than the allowable 5%. The
   costs are disallowed. The Corporation agrees with recommendation 6b and will include
   training on proper allocation and limitations on indirect costs rates in the on-line training
   program. For recommendation 6c, the FSR was replaced earlier this year with the
   government-wide Federal Financial Report. The Corporation will consider this
   recommendation as we review our current processes to ensure that indirect costs reported are
   within appropriate limitations. (Open)



                                                 4
Recommendation 7: We recommend that the Corporation, before making a grant award, verify
that grantees have written financial management policies and procedures, including policies for
determining reasonableness, allocability, and allowability of costs and draw downs of Federal
funds.

      Management Decision: The Corporation agrees that grantees must have written financial
      management policies and procedures in place, but does not agree that the verification must be
      done before award. In accordance with Corporation policy, grants officers conduct site visits
      or desk reviews within the first year of grant operation to verify that grantees have written
      policies and procedures in place and confirm they are operating as required. In addition, the
      on-line course grantee will take includes instructions on what written policies and procedures
      grantees must have in place, including policies for ensuring costs are reasonable, allowable
      and allocable. These processes provide sufficient verification and benefits that outweigh the
      costs of conducting the verification before awarding the grant. (Open)


cc:      Nicola Goren, Acting Chief Executive Officer
         William Anderson, Acting Chief Financial Officer
         Frank Trinity, General Counsel
         Sherry Blue, Audit Resolution Coordinator




                                                  5
